                                                                             Report No. DODIG-2014-007




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              NOVEMBER 8, 2013




                     Defense Logistics Agency
                     Disposition Services Afghanistan
                     Disposal Process Needed
                     Improvement




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                        Results in Brief
                                        Results in Brief: Defense Logistics Agency
                                        Disposition Services Afghanistan Disposal Process
                                        Needed Improvement


November 8, 2013                                        Finding Continued

Objective                                               In addition, these conditions occurred because DLA DS officials
                                                        did not assign an appropriate number of personnel responsible
We determined whether Defense Logistics Agency          for oversight within Afghanistan.
(DLA) Disposition Services (DS) was properly
disposing of equipment during the drawdown in           As a result, DLA DS had an increased risk of fraud, theft,
Afghanistan. We determined whether adequate             improper release of sensitive excess equipment, and transfer
controls existed over the receipt, inspection,          of sensitive equipment technology. In addition, DLA DS did not
coding, and disposal of equipment.                      receive optimal monetary return for scrapped equipment sold.


Finding                                                 Recommendations
DLA DS did not have adequate controls over              We communicated preliminary observations to management
disposal of excess equipment. DLA DS did not:           throughout the audit, and management was proactive in correcting
                                                        the deficiencies we identified. DLA DS eliminated backlogs,
   •	 have accountability over and correctly            identified and corrected system problems, provided additional
      code excess equipment. This occurred              system training, corrected coding errors, added personnel
      because DLA DS officials did not adequately       to key positions, addressed scale issues, submitted debit
      train personnel.                                  memorandums to bill scrap contractors, properly secured the
   •	 certify and verify demilitarization of excess     facilities, increased visitor access controls, developed local
      equipment in accordance with guidance             standard operating procedures, modified the labor contract,
      and accurately account for and bill scrapped      increased trained personnel with oversight responsibilities,
      equipment sold. This occurred because             and added contracting officer representative training to
      DLA DS Afghanistan officials did not              the pre-deployment requirements.          These actions are
      adequately monitor the certification and          commendable and address the conditions identified during
      scrap accounting processes.                       the audit; therefore, no additional actions are required.

   •	 have adequate access and security controls.
      This occurred because DLA DS officials            Management Comments
      did not develop local standard operating          We considered management comments on a discussion draft
      procedures.                                       of this report in preparing the final and revised the report as
                                                        appropriate. No official response was required, and none was
   •	 include the export-controlled items clause in
                                                        received. Therefore, we are issuing this report in final form.
      the Afghanistan labor contract. This was an
      oversight on the part of DLA DS officials.
                                                        See the recommendations table on the following page.




 Visit us on the web at www.dodig.mil


                                                                             DODIG-2014-007 (Project No. D2013-D000JB-0129.000)│ i
                  Recommendations Table
                                        Management                       Recommendations Requiring Comment
                      Director, Defense Logistics Agency Disposition   None
                      Services




ii │ DODIG-2014-007                                                               DODIG-2014-007 (Project No. D2013-D000JB-0129.000) │ ii
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                             November 8, 2013

MEMORANDUM FOR DIRECTOR, DEFENSE LOGISTICS AGENCY
	                DISPOSITION SERVICES

SUBJECT:	 Defense Logistics Agency Disposition Services Afghanistan Disposal Process
          Needed Improvement (Report No. DODIG-2014-007)

We are providing this report for your information and use.           Defense Logistics Agency
Disposition Services officials did not have adequate controls over disposal of excess equipment
in Afghanistan. As a result, Defense Logistics Agency Disposition Services increased its risk of
fraud, theft, and improper release of sensitive excess equipment in Afghanistan. In addition,
Defense Logistics Agency Disposition Services did not receive optimum monetary return for
scrapped equipment sold.

However, during the course of our audit, we brought these concerns to the attention of Defense
Logistics Agency Disposition Services officials, who promptly took steps to resolve each
problem. Therefore, we have no recommendations in this report. We considered management
comments on a discussion draft of this report in preparing the final and revised the report as
appropriate. No official response to this report was required, and none was received.

Should you have comments on the report, please send a PDF file containing the comments to
audrco@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We cannot accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff.        Please direct questions to me at
(703) 604-8901 (DSN 664-8901).




	 Daniel R. Blair
	 Deputy Inspector General
		 for Auditing




                                                                                           DODIG-2014-007 │ iii
                  Contents
                  Introduction
                  Objectives_________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________4

                  Finding. Improvements Over Disposition Controls Were
                  Needed During the Afghanistan Drawdown______________________5
                  Accountability and Coding Problems___________________________________________________________6
                  DLA DS Did Not Adequately Monitor the Demilitarization Certification and Accounting
                  for Scrap Equipment Processes_________________________________________________________________9
                  Access and Security Controls Were Not Adequate __________________________________________ 14
                  Export-Controlled Items Clause Missing From Labor Contract ____________________________ 17
                  Conclusion______________________________________________________________________________________ 19

                  Appendix
                  Scope and Methodology_______________________________________________________________________ 20
                       Use of Computer-Processed Data ______________________________________________________ 21
                       Use of Technical Assistance______________________________________________________________ 21
                       Prior Coverage____________________________________________________________________________ 21

                  Acronyms and Abbreviations______________________________________________ 23




iv │ DODIG-2014-007
                                                                                              Introduction




Introduction
Objectives
We determined whether Defense Logistics Agency (DLA) Disposition Services (DS) was
properly disposing of equipment during the drawdown in Afghanistan. Specifically, we
determined whether adequate controls existed over the receipt, inspection, coding, and
disposal of equipment. See the appendix for discussion of the scope and methodology.

Although our specific audit objective focused on controls over the receipt, inspection,
coding, and disposal of equipment, we determined during the planning phase of the audit
that those areas interrelate, and the best approach would be to audit controls over the
entire disposal process. As a result, the conditions identified relate to controls over the
DLA DS Afghanistan disposal process, which includes receipt, inspection, coding, and
disposal of equipment.


Background
DLA DS is the DoD activity responsible for the disposal of foreign excess personal
property (FEPP), scrap, and hazardous waste, and for demilitarizing required property
generated by DoD activities. Disposal of this property by entities other than DLA
requires approval of the combatant commander and concurrence from DLA. Disposal
programs include reuse, transfer, donation, and sale. Property no longer needed by the
DoD is sold to the public if it is appropriate and safe for sale.


DLA DS Afghanistan
DLA DS, Afghanistan, serves as a key staging area for reuse of usable property and the
destruction and removal of unusable equipment. In addition, DLA DS sites in Afghanistan
aid in clearing up clutter and keeping U.S. waste to a minimum, which reduces cleanup
problems when U.S. forces depart Afghanistan. There are four full-service contingency
DLA DS sites in Afghanistan, all accepting DoD property. They are located in Bagram
Airfield (BAF), Kandahar Airfield (KAF), Camp Leatherneck, and Camp John Pratt.
The DLA DS Afghanistan sites have a significant role in the U.S. drawdown from
Afghanistan, and property processed through DLA DS facilities has increased
significantly. For example, during October 2012, DLA DS BAF and KAF processed
2,178 usable inventory items; in comparison, during March 2013, the two sites
processed 9,097 usable inventory items.             Figure 1 shows property staged at
DLA DS BAF before disposal.




                                                                                          DODIG-2014-007 │ 1
Introduction




                                    Figure 1. Property Staged at DLA DS Bagram


                 DLA DS Afghanistan Disposition Process
                 One of the most critical and important stages in the flow of property through the
                 disposition process is the initial receipt of property at DLA DS. In this stage, it is
                 determined whether an item is serviceable. In addition, DLA DS verifies that the
                 items have all the required forms and certifications and are environmentally
                 compliant before accepting them to the DLA DS site for storage during the
                 disposal process.

                 Disposal service representatives implement service-delivery methods developed by
                 DLA DS that assist the customer (the generating activity/military unit) by making
                 disposal decisions regarding property at the customer’s location, sending property
                 directly to its ultimate location whenever possible, and reducing the number of times it
                 has to be handled. Inspection of the property is performed to verify condition, quantity,
                 demilitarization (DEMIL) code, and national stock number.

                 The inspection of property decides the course for further processing. The generating
                 activity is expected to obtain the correct DEMIL code from the Inventory Control Point
                 and enter that code on the Disposal Turn-In Document1 (DTID).

                 Disposal is the final stage before the property leaves DoD’s control. Property disposal
                 means redistributing, transferring, donating, selling, demilitarizing, destroying,
                 or other “end of life cycle” activities. In some cases, the act of demilitarization—
                 destroying the item’s military offensive and defensive capability—accomplishes
                 the intent of disposal. Once equipment is mutilated or demilitarized, the remaining
                 scrap metals are contracted out and sold to Afghan vendors.


                 	1	
                       DD Form 1348-1A, “Issue Release/Receipt Document” is a document that must accompany all property turned in for
                       disposition. It includes the document identifier, stock number, unit of issue, quantity of items, document number, disposal
                       authority, DEMIL code, supply condition code, and unit price.




2 │ DODIG-2014-007
                                                                                                                                       Introduction



Disposition Guidance
According to DoD 4160.21-M, “Defense Materiel Disposition Manual,” August 18, 1997,
DLA is responsible for administering the Defense Materiel Disposition Program
worldwide.           DLA is to establish and disestablish disposal organizations under its
control and, when these actions will affect disposal provided to Military Services or
other DoD components, coordinate with those organizations. DoD 4160.21-M provides
guidance on the disposition processes for DoD personal property. Defense Reutilization
and Marketing Service Instruction (DRMS-I) 4160.14, “Operating Instructions for
Disposition Management,” May 12, 2008, as amended January 2013, implements that
guidance and provides procedures for receiving, inspecting, processing, and disposing
excess equipment.


Recent Initiatives Impacting DLA DS Afghanistan
DLA DS has transitioned from the legacy Defense Reutilization and Marketing
Service Automated Information System to the Reutilization Business Integration2
(RBI) solution. The implementation of RBI in Afghanistan occurred in April 2013.
RBI incorporates DLA DS’ business processes into the existing DLA enterprise
suite. Each of the following RBI system partners will be responsible for specific
DLA DS functions:

              •	 Enterprise Business Systems—receipt, issue, inventory management, sales
                  contracts, and financials

              •	 Distribution Standard System—pre-receipt, receipt inventory management,
                  ultimate disposal base operating support system, and destruction

              •	 RBI Web—compliance, reutilization, transfer, and donation

              •	 DLA Transaction Services—data translation and routing

              •	 DLA Document Services—document management

              •	 Defense Logistics Management System—data exchange standards, forms,
                  and procedures

              •	 Federal Logistics Information System—item identification and maintenance




	2	
      RBI is the solution that includes the systems identified and the Distribution Standard System is the primary system used by
      DLA DS for accounting and inventory management; however, for purposes of discussion in the report, RBI is the term used
      to discuss all solution/system issues.




                                                                                                                                    DODIG-2014-007 │ 3
Introduction



                 The FY 2013 DLA DS annual statement of assurance stated that RBI deployment has
                 temporarily impaired some automated controls and the ability to perform some control
                 testing. In addition, data availability and visibility during RBI deployment has limited the
                 ability to monitor some controls.

                 DLA DS also recently transitioned to a zero-screening policy within Afghanistan.
                 The DLA, Director, Logistics Operations issued a memorandum on April 30, 2013, to
                 eliminate reutilization screening of serviceable FEPP, Afghanistan-wide, to improve
                 disposition processing time without impairing disposition options.          DLA will also
                 continue to work with Secretary of Defense, U.S. Forces-Afghanistan and State
                 Department offices to discuss the potential for sales of serviceable FEPP within
                 Afghanistan. If DLA obtains authorization to sell serviceable FEPP in-country, DLA
                 will attempt to do so; serviceable FEPP that is not reused or sold will be mutilated
                 and sold as scrap.


                 Review of Internal Controls
                 DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
                 May 30, 2013, requires DoD organizations to implement a comprehensive system of
                 internal controls that provides reasonable assurance that programs are operating
                 as intended and to evaluate the effectiveness of the controls. We identified internal
                 control weaknesses for the DLA DS field activities in Afghanistan related to the
                 disposal of excess equipment. However, management took corrective actions to
                 address the identified issues during the course of the audit. Therefore the internal
                 control weaknesses were corrected.




4 │ DODIG-2014-007
                                                                                                                                        Finding




Finding
Improvements Over Disposition Controls Were Needed
During the Afghanistan Drawdown
DLA DS in Afghanistan did not have adequate controls over disposal of excess equipment.
Specifically, DLA DS officials did not:

              •	 have accountability over $7.5 million of $8.5 million in excess equipment
                  or correctly code all excess equipment requiring demilitarization. This
                  occurred because DLA DS officials did not appropriately train personnel
                  during RBI implementation to effectively perform daily operations.

              •	 certify        and       verify       demilitarization             of     excess        equipment          for
                  28 of 93 DTIDs, valued at $1.6 million, in accordance with
                  applicable           guidance,          nor       accurately           account          for         and   bill
                  scrapped equipment sold on 5 of 30 days. This occurred because DLA
                  DS Afghanistan officials did not adequately monitor the certification and
                  scrap accounting processes to identify control weaknesses or implement
                  effective measures to correct control weaknesses related to those processes.

              •	 implement access and security controls to adequately safeguard
                  equipment. This occurred because DLA DS officials did not develop local
                  standard operating procedures for staff rotating into Afghanistan to follow.

              •	 include the export-controlled items clause in the DLA DS Afghanistan
                  labor contract. This occurred because the clause was inadvertently omitted
                  by DLA DS officials.

In addition, these conditions occurred because DLA DS officials did not complete an
assessment to determine the appropriate number of personnel responsible for oversight
within Afghanistan and assign staff accordingly to provide adequate oversight.

DLA DS’s lack of controls and oversight during the drawdown period increased the risk
of fraud, theft, improper release of sensitive3 excess equipment in Afghanistan without
proper disposal, and transfer of sensitive equipment technology. In addition, DLA DS did
not receive approximately $13,900 for scrapped equipment sold.


	3	
      Sensitive items are defined as property requiring a high degree of protection and control due to statutory or
      regulatory requirements.




                                                                                                                               DODIG-2014-007 │ 5
Finding



                 Accountability and Coding Problems
                 DLA DS Afghanistan did not adequately account for excess equipment and properly code
                 the excess equipment to be demilitarized in accordance with DoD guidance.


                 Accountability Over Excess Equipment Was Not Sufficient
                 Although 31 DTIDs with 3,393 inventory items were accounted for correctly,
                 DLA DS officials did not appropriately account for 62 of 93 DTIDs tested. According to
                 DoD 4160.21-M, accounting records must be maintained so that an item of property can
                 be traced from receipt to final disposition. The 62 DTIDs consisted of 1,750 inventory
                 items with an acquisition value of $7.5 million. See Table 1 for full results of testing.

                 Table 1. DTIDs Tested With Accountability Concerns

                                                                          Kandahar    Bagram         Total
                                                                           Airfield   Airfield
                     Inability to Physically Locate DTID (Equipment)         29          6            35
                     Location of DTID Different From Location Recorded       18          0            18
                     in Accountability Record (RBI)
                     Failure to Enter DTID Into Accountability Record        2           3             5
                     (RBI)
                     Inaccuracy of DTID Quantity or Status in                0           4             4
                     Accountability Record
                       Total Accountability Problems                         49         13            62


                 We were unable to locate equipment for 29 of 58 DTIDs tested at DLA DS KAF.
                 Management stated these items were demilitarized; however, RBI indicated they
                 were still on site, and DLA DS KAF had not completed or was not able to provide
                 DEMIL certifications for 28 of the 29 DTIDs at the time of the inventory inspection.
                 In addition, equipment associated with 18 of 58 DTIDs was located in a different
                 place from what was recorded in RBI, and 2 of 58 DTIDs were not entered into
                 the accountability records at all.                According to DLA DS KAF personnel, the
                 conversion from the old system of record, the Defense Reutilization and Marketing
                 Service Automated Information System, to RBI and inability to properly use RBI
                 created input backlogs and mismatches of recorded inventory locations to actual
                 locations of inventory stored on the yard.

                 Of the 35 DTIDs tested at DLA DS BAF, 13 items were not located or properly
                 accounted for in RBI. Specifically, we were unable to locate equipment associated
                 with six DTIDs. DLA DS personnel indicated the equipment had been demilitarized




6 │ DODIG-2014-007
                                                                                                        Finding



and scrapped; however, the items remained in the inventory records, and DLA DS BAF
had not completed demilitarization certifications.                  According to DLA DS BAF
personnel, they were unable to remove DTIDs from inventory due to a problem during
the conversion from the old system to RBI.                 Three of the DTIDs had not been
entered into the inventory records. These items were on the yard and in DLA DS BAF
possession; however, they were not entered into RBI. Figure 2 shows an example of
equipment on the yard that was not entered into RBI. In addition, DLA DS BAF did
not accurately account for equipment for four of the DTIDs.                    Two of the DTIDs,
according to the inventory records, should have been disposed of or no longer
on the yard; however, they were on site. For the other two DTIDs, DLA DS BAF
personnel did not input the accurate quantity of equipment associated with
the DTIDs in the inventory records. For example, 1 DTID quantity was overstated by 18
items, and the other was understated by 5 items.




            Figure 2. Compressors Not Recorded in the Property Records


In addition, DLA DS personnel at both KAF and BAF did not process excess equipment
in a timely manner. According to DRMS-I 4160.14, DLA DS will maintain an accurate
inventory by processing all property into the accountable record within 5 workdays
from date of physical custody.              However, DLA DS personnel did not input
26 of 93 DTIDs tested within the required 5 days.                        It took DLA DS between
6 to 21 days to input the 26 DTIDs into the inventory records.                      According to
DLA DS Afghanistan personnel, implementation of RBI created a backlog of
information that required input into the system.                In addition, we were unable to
verify the length of time it took DLA DS to input 15 of 93 DTIDs into inventory
records, because DLA DS personnel did not document on the DTID the actual
date they received possession of the equipment or they did not maintain the DTID.

As a result, DLA DS Afghanistan lacked visibility over equipment processed through or
maintained on its facilities. This increases the risk of theft, fraud, and improper disposal
of equipment.


                                                                                               DODIG-2014-007 │ 7
Finding




                 Excess Equipment Was Not Coded Correctly
                 DLA DS officials did not correctly enter the generating activity provided codes for excess
                 equipment requiring demilitarization.  To mitigate the risk of property falling into the
                 hands of our adversaries, DoD manages and controls DoD personal property through
                 various means, including assignment of DEMIL codes for appropriate destruction. 
                 DLA DS is the DoD activity responsible for the disposal of DEMIL required property
                 generated by DoD activities. 

                 We identified two instances in which DLA DS Afghanistan personnel processed
                 sensitive equipment requiring demilitarization as non-DEMIL-required within RBI. 
                 DLA DS personnel originally processed two DTIDs totaling 15 portable radios as
                 not requiring demilitarization (DEMIL code A).  However, in both instances, the
                 portable radios required demilitarization (DEMIL code  D).  DEMIL code D requires
                 DLA DS to destroy items and components to prevent restoration or repair to a usable
                 condition.  According to the DLA DS KAF site chief, this occurred because RBI assigned
                 the equipment a local stock number that pre-populated the DEMIL code field as “A”
                 and because personnel were not aware of the ability within the RBI to change DEMIL
                 codes.  If DLA DS does not validate that equipment is properly coded in RBI, there
                 is an increased risk that sensitive excess equipment may be released in Afghanistan
                 without proper disposal.


                 Improvements Needed Over Accounting and Coding of
                 Excess Equipment
                 Accountability and coding problems occurred because DLA DS officials did not
                 adequately train personnel deployed in Afghanistan during RBI implementation to
                 effectively use RBI for performing daily operations. The RBI training course provided
                 during continental-U.S. implementation was a 2-week course.             However, only 12
                 hours of RBI training were provided during implementation in Afghanistan. In
                                              addition, DLA DS Afghanistan personnel at KAF and BAF stated
                                  The              that critical aspects of RBI were not thoroughly covered
                              RBI training            during the training course in Afghanistan. DLA DS
                           course provided             Afghanistan personnel indicated that during system
                      during continental United
                                                        implementation the amount of training provided was
                      States implementation was
                      a 2-week course. However,          not adequate for them to properly learn to use RBI.
                     only 12 hours of RBI training       These training issues during RBI implementation
                         were provided during           caused control weaknesses, such as inaccurate or
                          implementation in
                              Afghanistan.            incomplete accounting for inventory within the RBI
                                                    system and lack of asset visibility.


8 │ DODIG-2014-007
                                                                                                    Finding



Management Actions Taken to Improve Equipment
Accountability and Coding of Excess Equipment
We informed DLA DS officials of our observations while on site, and they
corrected the accountability and coding issues we identified.                  Specifically,
DLA DS KAF officials provided on-the-job training on entering DTID data
into RBI and developed standard operating procedures for DLA DS personnel
responsible for excess equipment input; DLA DS KAF personnel eliminated input
backlogs by working additional hours and adding additional personnel; DLA
DS KAF officials immediately corrected coding of the 15 portable radios within
RBI and properly demilitarized the radios; and DLA DS BAF initiated helpdesk
trouble tickets to resolve the problems of demilitarized
equipment they were not able to remove from RBI
                                                                           DLA
inventory. In addition, DLA DS Afghanistan personnel                     DS KAF
have continued to work with the RBI implementation               officials immediately
team and helpdesk personnel to correct conditions               corrected coding of the
                                                               15 portable radios within
caused by reoccurring system-training issues. For              the system and properly
example, DLA DS identified and corrected the issue of              demilitarized the
aligning equipment as assigned within RBI to the actual                  radios.
location the equipment is stored. This required providing
additional training and guidance to individuals responsible
for staging the equipment. In addition, personnel who have rotated into positions
responsible for these duties had the full 80 hours of RBI training. These actions
address the concerns we identified; therefore, no additional actions are required.


DLA DS Did Not Adequately Monitor the
Demilitarization Certification and Accounting for Scrap
Equipment Processes
DLA DS officials did not certify and verify demilitarization of excess equipment for
28 of 93 items, valued at $1.6 million, in accordance with applicable guidance. In
addition, DLA DS had errors on 5 of 30 days in accounting for and billing scrap sold.


Demilitarization Certifications Were Not Always Compliant
DLA DS officials did not certify and verify demilitarization of excess equipment
in accordance with applicable guidance.            According to DRMS-I 4160.14, the
individual responsible for certifying demilitarization will certify quantity, perform
demilitarization,   and   sign   certification,   and   the   individual   responsible   for




                                                                                           DODIG-2014-007 │ 9
Finding



                 verification will witness or inspect residue from demilitarization performance and
                 countersign the certification. DRMS-I 4160.14 also states that certification must be
                 accomplished within 48 hours of demilitarization completion.         However, DLA DS
                 personnel in Afghanistan did not perform demilitarization certification functions in
                 accordance with applicable guidance for 28 of 93 sample items tested (238 pieces of
                 excess equipment), valued at $1.6 million.

                 For example, two vehicular frames valued at $275,222, could not be located during
                 the physical inspection at KAF on May 2, 2013.            DLA DS personnel stated the
                 items had already been demilitarized; however, the certification was not completed
                 until May 24, 2013, and was signed by an individual who was not in Afghanistan at
                 the time of the physical inspection. In another case, we could not locate three ballistic
                 blankets; DLA DS personnel again stated the items had been demilitarized as of our
                 physical inspection on May 2, 2013. However, the certification was not completed until
                 May 6, 2013. DLA DS KAF was responsible for 24 of the 28 noncompliant certifications,
                 and 3 of the 4 from BAF resulted from DTIDs that became stuck in the system after
                 converting from the old system. According to DLA DS KAF personnel, the certifications
                 were not available due to the backlog created during system conversion and the need
                 for additional demilitarization personnel.      As a result, DLA DS Afghanistan could
                 not ensure equipment was demilitarized appropriately, which increases the risk of
                 releasing equipment into Afghanistan without proper demilitarization.


                 Accounting and Billing of Scrapped Equipment Was
                 Not Accurate
                 DLA DS officials did not accurately account for and bill scrapped equipment sold.
                 According to DoD 4160.21-M, DLA DS is responsible for obtaining optimum monetary
                 return to the Government for all property sold. However, DLA DS field activities in
                 Afghanistan made errors in recording amounts that were subsequently billed for scrapped
                 equipment sold on 5 of 30 days reviewed, resulting in an understatement of $13,900 of
                 proceeds owed to DLA DS. In addition, scales for recording scrap weight were not fully
                 operational at both KAF and BAF. According to DRMS-I 4160.14, disposition of scrap
                 for sale must be weighed for accurate accounting and reconciliation purposes.
                 However, DLA DS officials did not have adequate controls to verify accurate weights
                 were recorded for scrap trucks entering or exiting the facility.




10 │ DODIG-2014-007
                                                                                                    Finding



Process for Billing and Accounting for Scrapped Equipment Sold
DLA DS determines the cost of scrap sold by its weight and the dollar price per unit within
the term sales contract for each scrap contractor in Afghanistan. When scrap trucks enter
the facility, the drivers have to enter a weighing area, where their trucks are weighed
(without scrap) by the scale operator. Each scrap truck is also weighed (after being
loaded with scrap) before leaving the premises. The difference between the initial and
post weight amounts of scrap trucks are calculated and recorded on a weight log.

The property disposal specialist collects the weight logs and manually calculates
the total, which is then transferred to DLA DS Form 1367, Shipment Receipt/Delivery
Pass Form, as the weight of the scrap released to the scrap contractor for the day.
The daily total weight of scrap sold is then manually entered to the monthly scrap sales
spreadsheet, which is sent to DLA DS headquarters in Battle Creek, Michigan. Before
RBI implementation, the DLA DS scrap contracting officer at headquarters would then
invoice the contractor monthly for the amount of scrap sold for the month. After
RBI implementation, the system generates a bill based on scrap amounts
removed from the system.                According to the DLA Screening Requirements
Memorandum, FEPP will no longer undergo the reutilization screening process.
Due to this memorandum, DLA DS Afghanistan will now mutilate and sell
all equipment as scrap, unless reuse is requested by a military unit at the O-6 level
or higher. Therefore, the only monetary return to the DoD for property disposed
of through DLA DS Afghanistan will be through the sale of scrapped equipment.
Figure 3 shows equipment received for disposal as scrap.




            Figure 3. Equipment Received for Scrap Disposition




                                                                                          DODIG-2014-007 │ 11
Finding



                 Deficiencies Identified in Kandahar Billing and Accountability of Scrap Sales
                 DLA DS did not appropriately bill for scrap sold to the contractor, Afghan Innovations
                 Solutions (AIS), for 3 of 15 days tested. Specifically, for January 2, 2013, DLA DS did not
                 bill AIS for $4,552 worth of scrap sold. This was a result of an erroneous formula in
                 the monthly scrap sales spreadsheet used to convert scrap weight pounds to kilograms
                 for billing purposes. Also, for January 18, 2013, DLA DS did not include $6,972 for
                 scrap sold on January’s invoice to AIS. This was due to the omission of scrap sold for
                 January 18, 2013, on the monthly scrap sales spreadsheet. For the month of March, an
                 erroneous input of weight on the monthly scrap sales spreadsheet for March 4, 2013,
                 resulted in DLA DS under billing AIS for $3,168 worth of scrap sold. Overall, DLA DS
                 did not bill AIS for $14,692 worth of scrap sold.

                 In addition, the truck scale computer at KAF did not record scale amounts and print
                 weight tickets that supported the amount sold and billed. According to the DLA DS
                                                Afghanistan area manager, he was not aware the scale
                                                     system was nonoperational until our audit; however,
                            According to the              he confirmed the weight tickets were not being
                           DLA DS Afghanistan               recorded nor printed, due to a malfunctioning
                        Area Manager, he was not             computer system.    As a secondary solution,
                       aware the scale system was
                      non-operational until our audit;       DLA DS KAF assigned a third-country national
                      however, he confirmed that the         contractor to manually enter the weights on
                       weight tickets were not being         the scrap weight log. We observed the scale
                        recorded by the computer
                                                            operator manually writing the weights of the
                                  system…
                                                           incoming and outgoing contractor scrap trucks.
                                                         The scale operator entered the weight of unloaded
                                                  and loaded trucks on a weight log; however, there were
                 no secondary verifications by DLA DS personnel to ensure the correct weight was
                 recorded. As a result, amounts recorded were not auditable and were subject to one
                 individual’s manual entries.


                 Bagram Billing and Accountability Errors for Scrap Sales
                 DLA DS did not appropriately bill for scrap sold to the contractor, Omran Samim
                 Construction Company, for 2 of 15 days tested. On February 18, 2013, the total
                 dollar amount of scrap sold was understated by $39 due to an erroneous calculation.
                 On March 28, 2013, because a weight ticket was added twice in the manual recording
                 of the scrap sales for the day, the total dollar amount of scrap sold to Omran Samim
                 Construction Company was overstated by $831. As a result, DLA DS overbilled Omran
                 Samim Construction Company by $792. Although these amounts were minor, they



12 │ DODIG-2014-007
                                                                                                   Finding



demonstrate the need for additional oversight over the manual processes used to account
for scrapped equipment sold.

In addition, the truck scale in BAF was inoperable, and BAF officials had been relying
on estimates to record scrap weight since early April 2013. DLA DS BAF processed
an average of 8.1 million pounds (lb) of scrap per month from January 2013 through
March 2013, and based on the wide variance of weights recorded for scrap trucks when the
scale was operational, estimates do not provide a reliable method for accurately recording
scrap. For example, March 2013 records indicate one scrap truck had weight ranges from
16,180 lb to 1,810 lb, and another had weight ranges from 22,210 lb to 3,750 lb.

As a result, there is very limited assurance of the accuracy of scrap amounts exiting
the yard, which increases the risk that DoD will not receive the appropriate amount of
proceeds for the scrap sold.


Increased Awareness and Controls Needed for Demilitarization
Certification and Scrap Accounting Processes
Demilitarization certification and scrap accounting problems occurred because
DLA DS Afghanistan officials did not adequately monitor operations to identify
control weaknesses or appropriately address known weaknesses. The delays in
certifying demilitarized equipment and correcting scale problems, along with
identification of accounting errors, could have been eliminated or minimized with
additional management action.


Management Actions to Improve the DEMIL Certification and
Accounting for Scrap Equipment Processes
We informed DLA DS officials of our observations while on site, and they corrected the
problems with demilitarization certifications and accounting of scrapped equipment
sold.   To correct the demilitarization certification problems, DLA DS KAF added
additional personnel in critical demilitarization positions to reduce backlog and made
changes to the certification process to provide greater assurance that the certifications
will occur in accordance with guidance.       DLA DS BAF submitted helpdesk tickets
asking to release demilitarized equipment stuck in RBI inventory so that DLA DS BAF
could process the equipment properly and finalize certification. To correct problems
with accounting and billing for scrapped equipment, DLA DS procured and delivered
portable scales within Afghanistan, including BAF.       The agency also submitted an
order and received approval for a fixed (floating) scale to be procured and installed
at BAF.   To provide greater assurance that the appropriate scrap sold amounts




                                                                                         DODIG-2014-007 │ 13
Finding



                 are recorded, DLA DS field sites are now using RBI to electronically track sales
                 inputs, removals, tracking, and billing in replacement of their manual process. The
                 process also now requires the verification and signature of a DLA representative
                 (a U.S citizen) as a secondary review to ensure the appropriate amounts are recorded
                 before the release of equipment or property. In addition, DLA DS submitted debit
                 memorandums to run against the September billing statements to AIS at KAF
                 and Omran Samim Construction Company at BAF to correct billing disparities we
                 identified. Additional actions are discussed in the oversight section of the report.
                 (See Actions Taken to Address Lack of Oversight.)         We commend DLA DS for its
                 actions to correct these concerns, and no further actions are required.


                 Access and Security Controls Were Not Adequate
                 DLA DS officials in Afghanistan did not have adequate access and security controls.
                 Specifically, DLA DS officials did not:

                          •	 adequately secure the facilities,

                          •	 appropriately escort visitors and scrap-truck drivers,

                          •	 change combination locks to entry and exit points, or

                          •	 limit access to the pilferable storage area to required personnel.

                 Facilities Were Not Secured
                 DLA DS Afghanistan officials did not adequately secure disposition facilities.
                 In March 2013, DLA DS KAF expanded its demilitarization area to accommodate
                 the increase in excess equipment associated with the drawdown in Afghanistan.
                 According to the DLA Physical Security Manual, December 2, 2011, steel outriggers
                 will be installed with their overhangs facing outward, each having three strands of
                 barbed wire, at intervals along the top of the fence line. In addition, the DLA Physical
                 Security Manual also stated that when walls and other structural barriers are
                 used, they will be constructed and arranged to provide uniform protection equivalent
                 to that provided by the chain-link fencing. However, physical observations showed
                 that the newly constructed demilitarization area did not maintain the same physical
                 security features as the previous portions of the DLA DS facility. The demilitarization
                 area was segregated and secured by single shipping containers approximately
                 8 to 9 feet tall (Figure 4). The shipping containers were not stacked to prevent
                 physical access.    Without proper physical security features, there is an increased
                 risk of unauthorized access and DLA DS cannot ensure DEMIL required assets are
                 properly secured.


14 │ DODIG-2014-007
                                                                                                                Finding




              Figure 4. Demilitarization Area, KAF; Single Containers in Background


In addition, DLA DS BAF had an opening to an area of the yard under development for DLA
DS BAF to extend its facility for storage containers. On several occasions, we observed
that the opening was unmonitored. DLA DS BAF management indicated the area under
development was blocked at the entrance by double-stacked containers that were
removed each morning to allow contractors in to work on the container lot. However, we
observed that the area was not occupied when the double-stacked containers had been
removed. The opportunities for unauthorized individuals to enter the yard undetected
are significantly increased when an open entrance is unsecured and unmonitored.


Controls Over Visitor Access
DLA DS officials did not appropriately escort scrap-truck drivers. DRMS-I 4160.14
states that all visitors must be escorted at all times.                    However, during testing,
we observed local national scrap-truck drivers walking the DLA DS facilities
unescorted. For example, On May 9, 2013, we observed a local
national scrap-truck driver walking the DLA DS KAF yard
                                                                                   We observed
unescorted.    DLA DS officials stated that the KAF                                local national
contractor    Relyant     is     responsible        for    escorting            scrap-truck drivers
scrap-truck drivers. In addition, on June  15, 2013, we                          walking the DLA
                                                                                    DS facilities
observed multiple local national scrap-truck drivers
                                                                                    unescorted.
walking the DLA DS BAF yard unescorted. DLA DS officials
stated that the DLA DS loader operator was monitoring the
scrap-truck drivers; however, we did not observe any additional
DLA DS employees monitoring the scrap-truck drivers and reliance for monitoring
visitors should not be placed on an individual responsible for loading the
trucks.   The ability to enter or move within a yard or building unchallenged and
uncontrolled constitutes a serious breach of security, resulting in an increased risk to
personnel and personal property, resources, and information.



                                                                                                      DODIG-2014-007 │ 15
Finding



                 Changing Combination Locks
                 DLA DS officials did not adequately change combination locks to entry and exit points.
                 According to DRMS-I 4160.14, DLA DS will change combinations at least annually, when
                 compromise is known or suspected, or when a person knowing the combination no longer
                 requires that knowledge. However, DLA DS officials in Afghanistan did not know when
                 the combinations to entry and exit gates were last changed; management indicated
                 KAF combinations were changed in March 2013, but they did not have documentation
                 of any combination changes. As a result, DLA DS cannot ensure excess equipment and
                 facilities are appropriately safeguarded.


                 Inappropriate Access to Pilferable Storage
                 DLA DS officials did not limit access to the pilferable/sensitive storage area to
                 required personnel. DoD Instruction 2040.02, “International Transfer of Technology,
                 Articles and Services,” July 10, 2008, states that DoD Components will ensure that
                 appropriate internal controls within DoD facilities are established and maintained
                 to prevent unauthorized access by foreign nationals to unclassified and classified
                 export-control information and technologies. However, during a physical inspection
                 at DLA DS KAF we observed a third-country national contractor with key access
                 to the pilferable/sensitive equipment storage facility.        Further review determined
                 that keys for the pilferable/sensitive equipment storage facility were accessible to
                 13 third-country nationals assigned to the labor contract at KAF.             Third-country
                 nationals with unsupervised access to pilferable/sensitive equipment storage facilities
                 have the potential to obtain export-controlled items and technology that could have a
                 negative effect on our military operations.


                 Standard Procedures Will Improve Access and
                 Security Controls
                 Access and security issues identified occurred because DLA DS officials did not develop
                 local standard operating procedures. The DLA Security Manual states local procedures
                 should be established to deter unauthorized personnel from entering an installation and
                 to protect installation resources. It further states that local procedures for all restricted
                 areas will prescribe in writing security measures for inspections of items moving
                 in and out of the area; opening and closing of the door; trash removal; restrictions on
                 briefcases, purses, lunch boxes, etc.; searches; and visitor control.

                 DRMS-I 4160.14 states that the DLA DS field activity will develop local standard
                 operating procedures for entry and movement operations to include processes,




16 │ DODIG-2014-007
                                                                                                  Finding



procedures, and/or checklists outlining visitor control and identification protocols.
DLA DS officials had not developed local access and security procedures for rotating
employees to follow and DLA DS Afghanistan employees were not aware of local access
and security procedures related to the deficiencies identified.


Management Actions Taken to Improve Controls Over Access
and Security
We informed DLA DS Afghanistan officials of our observations while on site, and they
corrected access and security issues identified during the audit. Specifically, DLA DS
KAF officials properly secured their demilitarization area by double-stacking shipping
containers to deter physical access, required DLA DS personnel to monitor scrap-
truck drivers in conjunction with base approved escorts while on the DLA DS facility,
limited the number of scrap trucks allowed on the facility at one time, and created a
separate storage location for pilferable/sensitive storage container keys and limited
access to DoD civilian and military personnel. DLA DS BAF officials developed guidelines
for scrap contractor escorts, drivers, and laborers and moved the truck driver’s
waiting area outside the BAF yard to a more controlled location. DLA DS BAF will
provide the guidelines to all contractor escorts, drivers, and laborers upon entry to
the facility. DLA DS BAF officials also installed a gate to control access to the new
container lot and double stacked containers at the entrance from the container lot to
the DLA DS facility to further restrict access. In addition, DLA DS Afghanistan officials
developed local standard operating procedures that addressed access and security
control weaknesses we identified, including facility security, lock controls, visitor
access, and pilferable storage. Therefore, no additional actions are required.


Export-Controlled Items Clause Missing From
Labor Contract
The DLA DS officials omitted the clause stating that the contractor must comply with
all applicable export-control laws and regulations in the DLA DS Afghanistan labor
contract, SP4510-13-D-0004, effective May 13, 2013.           DoD Instruction 2040.02,
states that DoD Components must ensure that all appropriate solicitations and
contracts include a clause stating that the contractor is to comply with all applicable
export-control laws and regulations in accordance with Defense Federal Acquisition
Regulation Supplement (DFARS) Subpart 225.79, “Export Controls,” June 2013.
DFARS Subpart 225.79, states that it is the contractor’s responsibility to comply
with all applicable laws and regulations regarding export-controlled items. It also
states to use DFARS clause 252.225-7048, “Export-Controlled Items,” June 2013,




                                                                                        DODIG-2014-007 │ 17
Finding



                 in all solicitations and contracts.   DLA DS in KAF and BAF had 93 third-country
                 nationals assigned to the labor contract and working with export-controlled items on
                 their facilities without the proper export-controlled items clause in the labor contract;
                 therefore, there is an increased risk of knowledge transfer related to export-controlled
                 items and technology that could have a negative effect on our military operations. DLA
                 DS legal counsel stated that the export-controlled item clause is a standard clause
                 that should have been included in the labor contract. DLA DS officials indicated that
                 the clause was inadvertently omitted from the Afghanistan labor contract.


                 Management Actions Taken to Address Labor Contract
                 DLA DS officials have performed corrective actions to address the labor contract
                 clause. As a result of suggestions made during the audit, DLA DS officials modified the
                 contract to include the DFARS clause 252.225-7048. Therefore, no additional actions
                 are required.


                 Increased Oversight Needed for Effective Disposal of
                 Equipment in Afghanistan During the Drawdown
                 DLA DS officials could have eliminated or reduced the conditions identified over the
                 disposal process within Afghanistan with an appropriate number of personnel assigned
                 to perform oversight and monitor the disposal process. The DLA DS KAF site chief
                 was responsible for providing oversight of 10 DoD civilian personnel, 15 military
                 personnel and the only contracting officer’s representative at KAF, who was in turn
                 responsible for 33 contractors assigned to the labor contract at this site. In addition,
                 the DLA DS BAF site chief was responsible for providing oversight for 13 DoD civilian
                 personnel, 5 military personnel, and the only contracting officer’s representative
                 at BAF, who was responsible for 66 contractors assigned to the labor contract there.
                 DLA DS Afghanistan needed additional oversight to reduce the risk of fraud, theft,
                 improper release of sensitive excess equipment in Afghanistan without proper
                 disposal, and obtain the optimal return for scrapped equipment sold.


                 Management Actions Taken to Address Lack of Oversight
                 DLA DS officials have taken corrective actions to assess the oversight levels within
                 Afghanistan.    They increased the number of trained personnel with oversight
                 responsibilities at each of the main sites to two and indicated they would have at least
                 three at each main site by September 22, 2013. In addition, DLA DS officials have
                 implemented a contracting officer’s representative training program as part of the
                 pre-deployment curriculum required of all staff prior to deploying to Afghanistan.
                 Therefore, no additional actions are required.



18 │ DODIG-2014-007
                                                                                                 Finding



Conclusion
DLA DS in Afghanistan needed additional controls over its disposition processes to
provide greater assurance that equipment was accurately accounted for and properly
disposed of and that an optimal monetary return for disposed equipment was realized.
This occurred because DLA DS Afghanistan did not receive adequate training during
the RBI implementation, there were too few personnel providing oversight, and
local operating procedures were not developed to provide necessary information to
personnel rotating into positions within DLA DS Afghanistan. We briefed DLA DS officials
throughout the audit so they could take corrective actions in response to our concerns.
DLA DS was proactive throughout the audit in implementing corrective actions based
on our suggestions. DLA DS officials made significant improvements to the disposition
process by implementing standard operating procedures, correcting errors, providing
additional training, implementing additional controls, assigning additional staff to
key positions, requesting payment for scrap amounts not previously billed, increasing
the number of oversight personnel, and requiring contracting officer’s representative
training for all DLA DS personnel deploying to Afghanistan. These actions address
the conditions identified during the audit and should provide greater assurance that
the disposition services operate effectively and efficiently during the drawdown in
Afghanistan. Therefore, no recommendations were required.




                                                                                       DODIG-2014-007 │ 19
Appendix




                 Appendix
                 Scope and Methodology
                 We conducted this performance audit from April 2013 through November 2013 in
                 accordance with generally accepted government auditing standards. Those standards
                 require that we plan and perform the audit to obtain sufficient, appropriate evidence to
                 provide a reasonable basis for our findings and conclusions based on our audit objectives.
                 We believe that the evidence obtained provides a reasonable basis for our findings and
                 conclusions based on our audit objectives.

                 We coordinated with and interviewed officials from DLA DS headquarters, and DLA DS
                 in Afghanistan.   We visited DLA DS KAF and BAF sites from April 2013 through
                 August 2013. We continued to gather data, perform analysis, and review corrective
                 actions through September 2013.

                 We conducted this audit to determine if the DLA DS Afghanistan was properly disposing
                 of equipment. The Quantitative Methods Division initially developed a stratified sampling
                 plan for selecting the statistical samples, but due to fast turnaround on equipment, it was
                 not possible to determine the size of the universe for statistical sampling. We selected a
                 nonstatistical sample of 40 DTIDs from the RBI universe of inventory as of May 1, 2013, 
                 for KAF and a nonstatistical sample of 24 DTIDs from the RBI universe of inventory as of
                 June 13, 2013 for BAF. We also selected 29 DTIDs to conduct floor to book testing
                 (18 from KAF and 11 from BAF). The 93 DTIDs consisted of 5,143 excess equipment items
                 worth $8.5 million. We reviewed all equipment associated with the 93 DTIDs. We also
                 selected a nonstatistical sample of days from January 2013 through March 2013 to test
                 the accuracy of amounts recorded and billed for scrapped equipment sold. We selected
                 5 days from each month for both KAF and BAF, totaling 30 days tested.

                 We conducted the review using DoD Manual 4160.21, “Defense Materiel Disposition
                 Manual,” August 1997; DRMS-I 4160.14, “Operating Instructions for Disposition
                 Management,” May 12, 2008, as amended January 2013; DLA Physical Security Manual,
                 December 2, 2011; DFARS Subpart 225.79, “Export Controls,” June 2013; and
                 DoD Instruction 2040.20, “International Transfer of Technology, Articles and Services,”
                 July 10, 2008. For all 93 sample items selected, we obtained applicable supporting
                 documentation that included the DTID, generating activity certifications, RBI
                 screen   shots,   and   demilitarization   certifications.   We    reviewed    supporting
                 documentation to verify whether the items were processed and supporting
                 documentation was in accordance with DRMS-I 4160.14 and criteria mentioned




20 │ DODIG-2014-007
                                                                                              Appendix



above.   We performed walk-throughs of the receiving, demilitarization, and scrap
processes with DLA DS Afghanistan personnel. In addition, for the 30 days we tested
scrapped equipment sold, we obtained records and forms for scrap property sales
over three months. We reviewed scrap weight ticket records and compared them
to the monthly scrap sales spreadsheets and billing invoices for accuracy
and completeness.


Use of Computer-Processed Data
We relied on computer-processed data from the RBI as provided from DLA DS officials.
We used data from RBI to determine how items were processed through the computer
system, if items were processed timely, and if DLA DS properly accounted for equipment
recorded in the system. We relied on the data from RBI to determine the universe of
inventory items. We used Webflis (the federal logistics information services, it is the
catalog of more than eight million supply items) to verify the national stock number,
DEMIL code, controlled inventory item code, and unit price were correctly reflected in
RBI. We performed testing within our selected sample items to ensure reliability of data
from RBI. As a result, we believe the computer process data were adequate to support
the findings and conclusions presented in this report.


Use of Technical Assistance
We obtained support from the DoD Office of Inspector General Quantitative Methods
Division in developing a nonstatistical sample for review.


Prior Coverage
During the last 5  years, the Government Accountability Office (GAO), the
Department of Defense Inspector General (DoD IG) and the Army Audit Agency
(AAA) have issued 9 reports discussing Defense Logistics Agency Disposition
Services. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted Army reports can be accessed from .mil and
gao.gov domains over the Internet at http://www.aaa.army.mil/.


GAO
GAO-10-376, “Operation Iraqi Freedom, Actions Needed to Facilitate the Efficient
Drawdown of U.S. Forces and Equipment from Iraq,” April 19, 2010

GAO-10-551T, “Warfighter Support: Continued Actions Needed by DoD to Improve
and Institutionalize Contractor Support in Contingency Operations,” March 17, 2010




                                                                                       DODIG-2014-007 │ 21
Finding



                 GAO-10-179, “Operation Iraqi Freedom, Preliminary Observations on DoD Planning
                 for the Drawdown of U.S. Forces from Iraq,” November 2, 2009

                 GAO-08-930, “Operation Iraqi Freedom: Actions Needed to Enhance DoD Planning
                 for Reposturing of U.S. Forces from Iraq,” September 10, 2008


                 DoD IG
                 D-2011-033, “DoD Needs to Improve the Management and Oversight of Operations
                 at   the   Defense   Reutilization   and   Marketing   Office–Camp   Arifjan,   Kuwait,”
                 January 12, 2011

                 D-2010-060, “Drawdown and Reset of Equipment in Iraq–Operation Clean Sweep,”
                 June 11, 2010

                 D-2010-027, “Army’s Management of the Operations and Support Phase of the
                 Acquisition Process for Body Armor,” December 8, 2009

                 D-2008-114, “Accountability for Defense Security Service Assets with Personally
                 Identifiable Information,” July 24, 2008


                 Army
                 A-2010-0171-ALL, “Disposal of Army Equipment and Material into Defense
                 Reutilization and Marketing Office Sites in Iraq,” August 24, 2010




22 │ DODIG-2014-007
                                                                 Acronyms and Abbreviations




Acronyms and Abbreviations
    AIS Afghan Innovations Solutions
   BAF Bagram Airfield
 DEMIL Demilitarization
 DFARS Defense Federal Acquisition Regulation Supplement
   DLA Defense Logistics Agency
DRMS-I Defense Reutilization and Marketing Service Instruction
    DS Disposition Services
  DTID Disposal Turn-In Document
  FEPP Foreign Excess Personal Property
   KAF Kandahar Airfield
    RBI Reutilization Business Integration




                                                                            DODIG-2014-007 │ 23
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
